<html>
<title> - WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 114-300]
[From the U.S. Government Publishing Office]








                                                      S. Hrg. 114-300

                           WORLDWIDE THREATS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-720 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  








                            C O N T E N T S

                               __________

                           february 26, 2015

                                                                   Page

Worldwide Threats................................................     1

Clapper, James R., Director of National Intelligence.............     4
Stewart, Lt. Gen. Vincent, Director of the Defense Intelligence 
  Agency.........................................................    38

                                 (iii)

 
                           WORLDWIDE THREATS

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD 09106, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Sullivan, Reed, Manchin, Shaheen, Gillibrand, Donnelly, Hirono, 
Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. Good morning, 
everybody.
    We have some nominations that, when we get sufficient 
number of frightened members who couldn't brave the snow today 
to come in--and we also have a--that----
    Glad to see the Senator from Maine here, who is used to 
this kind of weather year-round.
    So, anyway, so we'll--if we get a quorum, we'll talk about 
the nominations.
    And also, I'd like to tell the members here that Senator 
Reed and I have agreed on a letter to the Budget Committee 
concerning our views as to what the Budget Committee should do 
on Defense. And, hopefully, we'll circulate that letter and get 
as many signatures as possible. Both Senator Reed and I have 
reached agreement on that letter, and I'd like you to look at 
it, and as many as possible can sign it.
    The committee meets today to receive testimony on the 
nature and scope of the global threats faced by the United 
States and our allies.
    I want to welcome James Clapper, Director of National 
Intelligence, and General Vincent Stewart, the newly confirmed 
Director of the Defense Intelligence Agency. Thank you for 
being with us today.
    The committee recently conducted several hearings with some 
of our most respected national security leaders to explore the 
need for strategic thinking to address the threats we face. In 
the course of those hearings, these military and foreign policy 
leaders all agreed that the current international environment 
is more complex and dangerous than at any time in recent 
memory.
    On the terrorism front, ISIL continues to dominate much of 
Syria and Iraq while spreading its dark and vicious ideology in 
its effort to become the dominant Islamic extremist group in 
the world. At the same time, the risk of attacks by foreign 
fighters returning from the battlefield, or lone-wolf threats 
inspired by ISIL's successes, only increases the danger to the 
West. And Yemen, Afghanistan, Pakistan, Africa, al Qaeda and 
its affiliated groups continue to take advantage of ungoverned 
spaces to plan attacks against the United States and Western 
interests.
    Simply put, we are engaged in a generational fight for 
civilization against brutal enemies, and defeating these 
enemies require significant intelligence resources and focus, 
given the diffuse and constantly evolving nature of the threat.
    But, as we continue the fight against Islamic extremists, 
we must not lose sight of the other strategic threats we face. 
As the world ponders how to respond to Russia's invasion and 
dismemberment of Eastern Ukraine, Russia's provocations are 
only more worrisome in light of Vladimir Putin's intense focus 
on building up and modernizing Russia's military forces and 
doctrine and the geopolitical ambitions that these new Russian 
capabilities are designed to further.
    In Asia, stability and security of a vital and economically 
significant region is threatened by North Korea's continued 
aggression, buildup of its nuclear arsenal, and development of 
long-range ballistic missiles. The far greater challenge is 
China's dramatic growth and modernization of its own military 
capabilities, which appear designed to restrict the United 
States military's ability to operate in the western Pacific.
    That chart over there is very interesting, in that it shows 
the expansion by China in areas of the South China Sea. And I 
hope our witnesses might comment on the fact that, apparently, 
they are filling in enough of that area to perhaps employ 
weaponry such as anti-air and other capabilities.
    Anyway, Iran continues to exert malign influence throughout 
the Middle East and Africa, using proxies in Lebanon, Syria, 
Iraq, Sudan, Yemen, Gaza, and Bahrain, to undermine United 
States strategic interests. In fact, the Iranian influence and 
presence in Iraq have become one of the key factors and, it 
seems, limitations in United States policy planning in Iraq and 
Syria. We must also remain focused on the myriad potential 
threats of the future and, thus, maintain technological 
superiority against potential adversaries. Today this is of 
most concern in the cyber and space domains, where we see 
increasingly capable and aggressive activities by nation-state 
adversaries in areas with few established norms.
    I'd appreciate our witnesses' thoughts on each of these 
major issues. As policymakers, we look to the intelligence 
committee--community to provide timely and accurate information 
about the nature of the threats we face, the intentions of our 
adversaries, and the likely effect of certain actions we could 
take. In an age of increasing threats and flat defense budgets, 
the need for accurate intelligence about the plans and 
intentions of global actors becomes even more paramount.
    Again, I want to thank Director Clapper and General Stewart 
for testifying today. I look forward to your assessments of the 
nature and scope of the myriad threats we face, how the 
intelligence community prioritizes and approaches these many 
threats, and which of these many issues concern you the most.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming our witnesses. As they know 
very, very well, we currently face an alarming number of 
complex and varied national security challenges from many 
corners of the globe. And our witnesses' views on, and 
assessments of, these challenges are critical to the work of 
this committee.
    Last week, I traveled to Pakistan, Afghanistan, and Iraq, 
and had the opportunity to meet not only with the leaders in 
those countries, but also with the United States civilians and 
uniformed personnel who are so ably and courageously serving 
the United States.
    In Iraq, our military commanders stressed that, despite the 
setbacks that extremist fighters have suffered, ISIS remains 
capable militarily. It continues to consolidate its power in 
the region, including through the coercion of local 
populations. Coalition airstrikes have enabled local security 
forces, including Kurdish peshmerga and the Iraqi government's 
newly established militias, many of them Shi'a, to begin to 
gain ground from ISIS. But, concerns remain about when Iraq 
Security Forces will be ready to launch a counteroffensive to 
take Mosul and about Iran's growing influence inside Iraq. I 
look forward to hearing the witnesses' views on Iraq and the 
capabilities of both the military and the new government.
    In Afghanistan and Pakistan, the Taliban remains resilient, 
despite coming under pressure on both sides of the border. The 
challenge for United States forces in Afghanistan will be to 
keep the counterterrorism pressure on the Taliban even as we 
build the capacity of Afghan Special Operations Forces to 
ensure that Afghanistan does not once again become a haven for 
al-Qaeda and other terrorists. We would be interested in our 
witnesses' views on the Taliban threat for the 2015 fighting 
season, the possibility of Pakistan-supported reconciliation 
talks with the Taliban and the Government of Afghanistan, and 
the significance of reports of a growing ISIS presence in 
Afghanistan and Pakistan.
    On Iran, the diplomatic effort to prevent Iran's 
acquisition of nuclear weapons are ongoing, and the end of 
March is the next point at which we will assess Iran's intent 
with regard to its nuclear program. I hope the witnesses will 
provide us with an update on the intelligence community's 
thinking with regard to negotiations and our assessment of 
Iran's activities in the region under the two possible 
scenarios: deal or no deal.
    In Syria, coalition airstrikes of the naval Kurdish 
fighters to regain control of Khobani and expand outward, but 
ISIS remains a formidable force. General Nagata will begin 
training the moderate Syrian opposition in the coming months. 
And, if successful, these forces could, over time, assist the 
coalition to promote the conditions for a political settlement. 
Just last week, at a Regional Chiefs of Defense Conference, the 
United States and Turkey signed a key agreement to allow 
training of these forces to begin in Turkey once recruits are 
identified. I am interested in the witnesses' views on the 
potential of this Syrian training initiative and the challenges 
we'll face.
    In Europe, the post-cold-war international order is under 
threat from a Russia that seeks to intimidate the Ukraine and 
other neighboring countries through the creation or 
perpetuation of conflicts at increasingly aggressive military 
activities. Your assessment of the size of Russia's military 
buildup and President Putin's intentions could be of interest 
to the committee.
    We've faced a different, but no less complex, series of 
challenge in the Asia-Pacific region. A recent cyber attack on 
Sony by North Korea illustrates the unpredictable and coercive 
nature of that regime and demonstrates that even a relatively 
small and weak rogue nation taking advantage of our 
unparalleled dependence on electronic networks can reach across 
the ocean to cause extensive damage to a United States-based 
economic target through cyberspace. Furthermore, while Chinese 
cyber attacks are not as public, they are just as problematic 
and continue to pose a security challenge to the United States. 
We would be interested to know whether we can expect more 
attacks of this nature and what we can do to make our systems 
and our Nations more resilient in the future.
    Finally, we have a threat close to home, and that is 
sequestration. It is a threat that jeopardizes not only our 
National security, but our public safety, health, 
transportation, education, and environmental resources, as 
well. As we receive testimony today on the current and future 
threats to our National security, we here in Congress must be 
mindful of the necessity to find a balanced and bipartisan 
solution that includes a repeal of sequestration.
    Thank you again for appearing today, and I look forward to 
hearing your testimony.
    Chairman McCain. Welcome the witnesses.
    General Clapper.

      STATEMENT OF JAMES R. CLAPPER, DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Clapper. Chairman McCain, Ranking Member Reed, and 
members of the committee, it's a great pleasure and honor for 
me to be here with General Vince Stewart. And he and I are here 
today to update you on some, but certainly not all, of the 
pressing intelligence and national security issues facing our 
Nation.
    I need to note up front that there were some classified 
issues we discussed in our closed hearing on Tuesday that we 
won't be able to discuss as fulsomely in this open televised 
hearing.
    In the interest of time and to allow for questions, I will 
only cover some of the wave tops on behalf of both of us. Two 
overall comments at the outset:
    One, unpredictable instability is the new normal. The year 
2014 saw the highest rate of political instability since 1992, 
the most deaths as a result of state-sponsored mass killings 
since the early 1990s, and the highest number of refugees and 
internally displaced persons, or IDPs, since World War II. 
Roughly half of the world's currently stable countries are at 
some risk of instability over the next 2 years.
    The second overall comment is, this pervasive uncertainty 
makes it all the harder to predict the future. 2014 and 2015 
saw a number of events that illustrate this difficulty: the 
North Korean attack on Sony, the most serious and costly 
cyberattack against United States interests to date, the ebola 
epidemic, and the small-scale but dramatic terrorist attacks in 
Australia, Belgium, Canada, Denmark, France, and the United 
States.
    Again this year, I'll start with cyber threats. Attacks 
against us are increasing in frequency, scale, sophistication, 
and severity of impact. Although we must be prepared for a 
catastrophic large-scale strike, a so-called ``cyber 
Armageddon,'' the reality is that we've been living with a 
constant and expanding barrage of cyberattacks for some time. 
This insidious trend, I believe, will continue. Cyber poses a 
very complex set of threats, because profit-motivated 
criminals, ideologically motivated hackers, or extremists in 
variously capable nation-states, like Russia, China, North 
Korea, and Iran, are all potential adversaries, who, if they 
choose, can do great harm. Additionally, the methods of attack, 
the systems targeted, and the victims are also expanding in 
diversity and intensity on a daily basis.
    2014 saw, for the first time, destructive cyberattacks 
carried out on United States soil by nation-state entities, 
marked first by the Iranian attack against the Las Vegas Sands 
Casino Corporation, a year ago this month, and the North Korean 
attack against Sony in November. While the both of these 
nations have lesser technical capabilities in comparison to 
Russia and China, these destructive attacks demonstrate that 
Iran and North Korea are motivated and unpredictable cyber 
actors.
    Russia and China continue to develop very sophisticated 
cyber programs. While I can't go into detail here, the Russian 
cyber threat is more severe than we had previously assessed. 
And Chinese economic espionage against United States companies 
remains a major threat, despite detailed private-sector 
reports, scathing public indictments, and stern U.S. demarches.
    With respect to non-nation-state entities, some 
ideologically motivated cyber actors expressing support for 
ISIL have demonstrated their capabilities by hacking several 
social media accounts. The so-called ``Cyber Caliphate'' 
successfully hacked CENTCOM's Twitter account and YouTube page 
in January, and, 2 weeks ago, hacked Newsweek magazine's 
Twitter handle.
    The most pervasive cyber threat to the U.S. financial 
sector is from cyber criminals. Criminals were responsible for 
cyber intrusions in 2014 into JPMorgan, Home Depot, Target, 
Nieman Marcus, Anthem, and other United States companies. And, 
in the future, we'll probably see cyber operations that change 
or manipulate electronic information to compromise its 
integrity instead of simply deleting or disrupting access to 
it. In the end, the cyber threat cannot be completely 
eliminated. Rather, we must be vigilant in our efforts to 
detect, manage, and defend against it.
    Moving on to terrorism. In 2013, just over 11,500 terrorist 
attacks worldwide killed approximately 22,000 people. 
Preliminary data for the first 9 months of 2014 reflects nearly 
13,000 attacks, which killed 31,000 people. When the final 
accounting is done, 2014 will have been the most lethal year 
for global terrorism in the 45 years such data has been 
compiled. About half of all attacks, as well as fatalities, in 
2014 occurred in just three countries: Iraq, Pakistan, and 
Afghanistan.
    I'm drawing this data--the Islamic State of Iraq and the 
Levant (ISIL) conducted more attacks than any other terrorist 
group in the first 9 months of 2014, and in--credit where 
credit's due, I'm drawing this data from the National 
Consortium of the Study of Terrorism and Responses to 
Terrorism, or START, at the University of Maryland.
    The recent terrorist attacks in Europe emphasize the threat 
posed by small numbers of extremists radicalized by the 
conflicts in Syria and Iraq. The global media attention and 
widespread support in extremist circles for these attacks 
probably will inspire additional extremists to conduct similar 
attacks.
    And ISIL, al Qaeda, and al Qaeda in the Arabian Peninsula, 
and, most recently, al-Shabaab, are calling on their supporters 
to support lone-wolf attacks against the United States and 
other Western countries. Of the 13 attacks in the west since 
last May, 12 were conducted by individual extremists.
    Since the conflict began, more than 20,000 Sunni foreign 
fighters have traveled to Syria from more than 90 countries to 
fight the Assad regime. Of that number, at least 13,600 have 
extremist ties. More than 3400 Western fighters have gone to 
Syria and Iraq. Hundreds have returned home to Europe. About 
180 Americans or so have been involved in various stages of 
travel to Syria. I should point out this is those who've 
attempted to go, didn't get there, those who got there and were 
killed, those who got there, fought, and went to another 
country, and some number who have come back. A relatively small 
number have returned, and we've not identified any of them 
engaged in attack plotting. Nevertheless, the homegrown violent 
extremists continue to pose the most likely threat to the 
Homeland. Lone actors or insular groups who act autonomously 
will likely gravitate to simpler plots that don't require 
advanced skills, outside training, or communication with 
others. A small, but persistent, number of Sunni terrorist 
groups remain intent on striking the United States and the 
west, some of whom still see commercial aviation as an 
appealing target.
    Moving to the Mideast, ISIL is increasing its influence 
outside of Iraq and Syria, seeking to expand its self-declared 
caliphate into the Arabian Peninsula, North Africa, and South 
Asia, and planning terrorist attacks against Western and Shi'a 
interests. ISIL's rise represents the greatest shift in the 
Sunni violent extremist landscape since al Qaeda affiliates 
first began forming, and it is the first to assume at least 
some characteristics of a nation-state.
    Spillover from the Syrian conflict is raising the prospect 
of instability in Lebanon, Jordan, and Saudi Arabia. In Iraq, 
sectarian conflict in mixed Shi'a/Sunni areas is growing, and, 
if not blunted, will undermine progress against ISIL. While 
Prime Minister Abadi has begun to alter the ethnosectarian tone 
in Iraq, resistance from his Shi'a political allies and 
persistent distrust among Iraqi leaders will limit progress 
toward a stable, inclusive political environment.
    ISIL's ability to conduct large-scale offensive operations 
in Iraq has been degraded by coalition airstrikes, the 
provision of weapons and munitions by the United States and 
other allies, and stiffened defenses by the Iraqi Security 
Forces, Kurdish peshmerga, Shi'a militants, and tribal allies, 
not to mention the Iranians. However, ISIL remains, as we've 
seen, a formidable and brutal threat.
    Moving to Syria and parts of western Syria, the Syrian 
regime made consistent gains in 2014, but it will require years 
for it to reassert significant control of the country as a 
whole. The regime has a clear advantage over the opposition, 
which is plagued by disunity as well as firepower, manpower, 
and logistical shortfalls. Right now, they're incapable of 
militarily ousting Assad, and will probably remain so in 2015.
    Assad is confident. He thinks the war is winnable. The 
conflict, with over 202,000 people killed--estimated to have 
been killed--will continue to threaten the stability of its 
regional neighbors and foster the rise of regional sectarianism 
and extremism. As well, it will strain the region's fragile 
economic balance as millions of refugees continue to flee the 
conflict. Over 52 percent of Syria's prewar population, or 
about 11.4 million people, has been displaced.
    Iran is exerting its influence in Syria, Iraq, and Yemen. 
Tehran has provided robust military support to Damascus and 
Baghdad in the form of arms, advisors, funding, intelligence 
collection, electronic warfare, and cyber support, and combat 
support. More broadly, Iran will face many of the same decision 
points in 2015 as it did in 2014. Foremost is whether the 
Supreme Leader will agree to a nuclear deal. He wants sanctions 
relief, but, at the same time, to preserve his options on 
nuclear capabilities.
    In Libya, two rival governments emerged, so the country has 
no clear legitimate political authority and is embroiled in a 
civil war. External support to both sides by countries in the 
region has further stoked the violence. Extremists and 
terrorist groups affiliated with al Qaeda and ISIL are 
exploiting Libya's permissive security environment. They're 
using the country to train and to plot. ISIL's beheadings of 
the Coptic Christians highlight the growing threat posed by 
ISIL and affiliated groups in Libya.
    Moving to Yemen, the evacuation of our Embassy in Sana'a 
has, for now, reduced the effectiveness of our counterterrorism 
efforts. After President Hadi's attempted resignation and the 
Huthi's unilateral dissolution of the government, Yemen's 
political future and stability are, at best, uncertain, 
particularly with Hadi's apparent escape to Aden and perhaps 
his reassertion of his presidential authorities. Iran has 
provided support to the Huthis for years, and there ascendancy 
is increasing Iran's influence.
    Let me move briefly to Russia. The crisis in Ukraine is 
entering its second year and is achieving--and achieving a 
lasting solution that allows Kiev to pursue western integration 
will be difficult, to say the least. Moscow sees itself in 
direct confrontation with the west over Ukraine, and will be 
very prone to overreact to United States actions. Putin's goals 
are to keep Ukraine out of NATO and to ensure separatist 
control and autonomous entity within Ukraine. He wants Moscow 
to retain leverage over Kiev. And Crimea, in his view, is 
simply not negotiable.
    Russian dominance over the former Soviet space is Russia's 
highest foreign policy goal. Falling oil prices, Ukraine-
related costs, and Western sanctions have spurred double-digit 
inflation and have tipped Russia's economy towards recession. 
Russia will continue to possess the largest, most capable 
foreign nuclear ballistic missile force. Russia's weapons 
modernization plans will focus on strategic warfare and ways to 
mitigate what they think are our advantages, like prompt global 
strike.
    China. China's leaders are primarily concerned with 
domestic issues: the Communist Party's hold on power, internal 
stability, and economic growth. Although China is looking for 
stable ties with the United States, it's more willing to accept 
bilateral and regional tensions in pursuit of its interests, 
especially on maritime sovereignty issues. And, as you noted, 
Chairman McCain, China is expanding and accelerating the 
buildup of outposts in the South China Sea, to include 
stationing for their ships and potential airfields. More 
broadly, they continue an aggressive military modernization 
program directly aimed at what they consider to be our 
strengths. Their military training program last year included 
exercises unprecedented in scope, scale, and complexity to both 
test modernization progress and to improve their theater 
warfare capabilities. President Xi Jinping is pursuing an 
ambitious reform agenda that risks both leadership tensions and 
domestic unrest. The slowdown of the Chinese economy is 
reinforcing the leader's neuralgia about internal stability and 
reinforcing a harsh crackdown on internal dissent.
    Needless to say, there are many more threats to United 
States interests worldwide that we can address, many of which 
are covered in detail in our statement for the record--notably, 
the classified version--such as Afghanistan, North Korea, and 
weapons of mass destruction.
    But, I think, with that grim litany, will--I will stop and 
will open to your questions.
    [The prepared statement of Mr. Clapper follows:]
    
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
         
   
    
      

STATEMENT OF LT. GEN. VINCENT STEWART, DIRECTOR OF THE DEFENSE 
                      INTELLIGENCE AGENCY

    General Stewart. Mr. Chairman, in the interest of time, we 
have the statement for the record and just one oral statement 
from Director Clapper.
    [The prepared statement of General Stewart follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
     
    
      
    Chairman McCain. Thank you.
    Director Clapper, on the issue of defensive weaponry to 
Ukraine, do you believe that, if we give that assistance, that 
it would escalate--provoke Putin to escalate his assistance to 
the, quote, ``separatists'' and his aggression against Ukraine?
    Mr. Clapper. Well, General Breedlove discussed this 
recently, and he did make, I think, a very apt comment, and, 
you know, predicting exactly what Putin will do or what his 
behavior will be is something of an unknown. I think the 
intelligence community view is that, if we were to provide 
lethal assistance to Ukraine, that this would evoke a negative 
reaction from Putin and the Russians. It could potentially 
further remove the very thin figleaf of their position that 
they're not--have not been involved in Ukraine, and could lead 
to accelerating or promoting more weaponry and higher 
sophistication into the separatist areas to support the 
separatists. But, I hasten to add, this is an intelligence 
community assessment, and this is not necessarily to suggest 
opposition to provision of lethal aid.
    Chairman McCain. Well, I'm glad you added that, because my 
next question is, What more do you think that Putin would do--
could do? Go to Kiev?
    Mr. Clapper. Sir, we don't----
    Chairman McCain. They certainly--the weaponry he's using 
now is his most sophisticated weaponry.
    Mr. Clapper. We don't--well, he could bring in a lot more 
if he wanted to, and----
    Chairman McCain. He could bring in more----
    Mr. Clapper.--certainly more volumes of it.
    Chairman McCain. To do what?
    Mr. Clapper. Well, for example, armed helicopters----
    Chairman McCain. Yeah, to do--to achieve what goal?
    Mr. Clapper. Well, it is not our assessment that he is bent 
on capturing or conquering all of Ukraine. He certainly wants--
--
    Chairman McCain. Absolutely.
    Mr. Clapper.--I believe he wants a whole--from an 
infrastructure standpoint--entity, I believe, composed of the 
two oblasts in eastern Ukraine--
    Chairman McCain. Which he's already----
    Mr. Clapper.--to include, perhaps----
    Chairman McCain:--achieving.
    Mr. Clapper.--a land bridge to Crimea and perhaps a port--
specifically, Mariupol. We do not believe that an attack on 
Mariupol is imminent. Think they're in the mode now of 
reconstituting and regrouping after the major confrontation in 
Debaltseve.
    Chairman McCain. Well, I have to tell you that I disagree 
with you. They're already increasing activities around 
Mariupol, and I will predict to you now he will put additional 
pressure on Mariupol, because he wants to establish the land 
bridge there. Just as some of us predicted exactly what he's 
doing now.
    And to say that we're worried about provoking him, he's not 
going to go to Kiev. He's going to establish the land bridge to 
Crimea, and then he's going to figure out whether he should go 
to Moldova, or not. He's already putting intense pressure on 
the Baltics. We all know that. We don't have to have 
intelligence reports to get that.
    So, this idea that somehow we will provoke Vladimir Putin--
he's done everything he wanted to do, General. You tell me what 
he didn't want to do that would have--that he would have done 
if we had provided these people with the ability to defend 
themselves rather than be slaughtered by the most modern 
equipment that the Russians have.
    Mr. Clapper. Well, I don't think he will view it happily if 
we provide--if the United States provides lethal support. 
That's----
    Chairman McCain. Because more Russians might be killed who 
are now in Crimea killing Ukrainians.
    Mr. Clapper. That's right. And it will be harder for him to 
hide that fact to the home audience.
    Chairman McCain. What difference does it make whether he 
hides it? There's no hiding what he's done. Everybody knows 
what he's done.
    Mr. Clapper. Well, everyone in Russia----
    Chairman McCain. General Breedlove has made it--laid it out 
very clearly.
    Well, I'm not in an open dispute with you. I'd--we've got 
to move on. But, it is just incredible to believe that he would 
be, quote, ``provoked'' to further action, when he has achieved 
every goal that he sought along the way. And we'll see who's 
right about Mariupol, Director Clapper.
    Mr. Clapper. Sir, I'm not arguing about Mariupol. The only 
issue there is timing. I believe they will not--they'll wait--
--
    Chairman McCain. He's got plenty of time.
    Mr. Clapper.--they'll wait til the spring before they 
attack. That's----
    Chairman McCain. Sure.
    Mr. Clapper. That will be a formal undertaking for the 
Russians and the separatists.
    Chairman McCain. I agree with you.
    Mr. Clapper. It's much better defended.
    Chairman McCain. I totally agree with you. Why not pull 
back? He's not getting any increasing in sanctions, he's not 
getting weapons--or the Ukrainians aren't receiving defensive 
weapons from us. If I were him, I would do exactly that, too. 
He's got plenty of time.
    Yesterday, the Secretary of State said, ``Our citizens, our 
world today, is actually--despite ISIL, despite the visible 
killings that you see and how horrific they are, we're actually 
living in a period of less daily threat to Americans and to 
people in the world than normally. Less deaths, less violent 
deaths today than through the last century.'' And yet, just 
today, the Director of the Federal Bureau of Investigation 
(FBI) and others have said that there are threats to 30 
nations--excuse me--30 States in this Nation. What is your view 
of the threat to the United States of America, Director 
Clapper?
    Mr. Clapper. Well, first, sir, I will say, as I've said 
every year--this'll be the fifth year that--in my 50-plus years 
in the intelligence business, I don't know of a time that has 
been more beset by challenges and crises around the world. I 
worry a lot about the safety and security of this country, for 
a lot of reasons, not the least of which, which Senator Reed 
alluded to, is the impacts that sequestration is having on the 
intelligence community. We didn't get a pass. So, the same 
rules that apply to, say, the Department of Defense apply to 
us, as well. So, the combination of the challenges that we have 
around the world and the declining resource base that we have 
to monitor them is of concern to me.
    Chairman McCain. So, could I just----
    Mr. Clapper. Director Comey was referring to the fact that 
he now has some form of investigation--and, of course, the FBI 
has a tiered system for intensity of investigation--and they 
now have some form of investigation on homegrown violent 
extremists, not necessarily direct sympathizers or supporters 
of ISIL, but in all 50 of our States.
    Chairman McCain. Thank you, Director. And I could just ask, 
again, because you made reference to it, if we don't--if we 
stick to sequestration, as it is planned, it will impair our 
ability for you to do your job and defend this Nation. Is that 
a correct statement?
    Mr. Clapper. Yes, sir. And I've said that in the past. A 
little harder for intelligence to make that case as concretely 
as, say, the Navy and how many ships it builds, or the Air 
Force and how many aircraft it's able to fly. In our case, the 
impacts--I hate to use the word, but I will--are more 
insidious, in that predicting when we have a lesser capability 
will eventuate in a failure is hard to quantify. But, just 
based on my best professional judgment from having served in 
this business for a long time, I'm very concerned about it. And 
if we revert to sequestration in 2016, the damage to the 
intelligence community will be quite profound.
    Chairman McCain. I thank you very much, Director.
    Thank you, General.
    Jack?
    Senator Reed. General, thank you. And, both generals, thank 
you.
    The Chairman has covered very well some of the issues 
arising out of the Russian activities in Ukraine and Crimea. Is 
your assessment that Putin is carrying out a strategic plan, or 
is some of this opportunistic? He's just seizing the moment? Or 
it's a combination of both?
    Mr. Clapper. I'm sorry, sir, I didn't----
    Senator Reed. Or is it a combination of both.
    Mr. Clapper. Both----
    Senator Reed. He has a strategy----
    Mr. Clapper.--a strategic plan and----
    Senator Reed.--and opportunistic----
    Mr. Clapper. Well, yes. I think it became a strategic plan 
when Yanukovych upped and left very suddenly last--almost a 
year ago, 22nd of February. And then I think he saw an 
opportunity, particularly with the seizure of Crimea, which I 
think has always been in his craw. And, given Putin's approach 
and the way he looks at greater Russia and what a disaster the 
breakup of the Soviet Union was, and his--as I said in my 
statement, that his highest foreign policy objective is 
controlling the former Soviet space. So, I think, on the heels 
of the seizure of Crimea and the establishment of some sort of 
an arrangement in eastern Ukraine, and what I believe will be 
more of a softer approach, maybe not direct military action, 
but, as the Chairman alluded to, Transnistria and Moldova, and 
certainly there'll be pressure brought to bear in the Baltics, 
particularly where there are high levels of Russian minorities. 
A little different situation with the Baltics, since they are 
North Atlantic Treaty Organization (NATO) members, which, of 
course, Moldova, Ukraine, et cetera, are not.
    Senator Reed. We have conducted recently some very small 
military demonstrations in the Baltics. Company of the 173rd 
Airborne went in. I think just a day or two ago there was a 
parade of U.S. military vehicles. What's the reaction to the 
Russians to those?
    Mr. Clapper. Well, they, I think, watch that. I mean, 
that's--it's an--it's symbolically important. There's a 
messaging there. And I think it is--and they're sensitive to 
that. They're mindful of the fact that the Baltic nations are 
NATO members. And I do think they distinguish that.
    Senator Reed. We have elaborate sanctions in place. You've 
indicated in your comments that they have not had, in my 
interpretation, an appreciable effect yet on his strategy. They 
might be affecting the economy, but they haven't affected his 
strategy.
    Mr. Clapper. That's exactly right, Senator Reed. So far, 
that has not changed his approach. And, of course, what's had 
the greater impact, frankly, on the economy has been the----
    Senator Reed. Oil.
    Mr. Clapper.--precipitous drop in oil prices.
    Senator Reed. Do you have any sort of indication that this 
is--as this situation deteriorates further, there will be an 
impact on his strategy?
    Mr. Clapper. There could. And there--and, of course, what 
we see is, they're very sensitive to opposition, you know, 
demonstrations in the street. They're very, very sensitive 
about a color revolution occurring in Russia, itself. And, of 
course, that's another reason why Putin reacted to the 
situation in Ukraine, because he believes we instigated that as 
another color revolution in Ukraine right on his doorstep, and 
that, in turn, posed a--in his mind, an existential threat to--
in Russia.
    Senator Reed. Just changing gears, the Iranians have a 
explicit presence in Iraq today, and we have forces there, too. 
And in the next several days or weeks, there's two possible 
triggering events. One would be much more aggressive action 
against the Assad regime in Syria or the resolution of the 
negotiations with the Iranians on their nuclear program. Do you 
have any views with respect to what might happen to--within 
Iraq with respect to their Iranian forces, which are now sort 
of not cooperating with us, but----
    Mr. Clapper. Is your question, sir, Is there a connection 
between the nuclear negotiations and agreement----
    Senator Reed. Will there be a reaction in Iraq to either 
the activities that we undertake, or proceed to undertake, in 
Syria or the conclusion of the negotiations?
    Mr. Clapper. I really don't think that the negotiations, 
one way or the other, will have much bearing on what they do in 
Iraq or anyplace they are trying to exert their influence, 
meaning Syria or now Yemen. As best we can tell, the Iranians 
have kind of segmented the nuclear negotiations and potential 
nuclear agreement from their regional aspirations.
    Senator Reed. Thank you, General.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have three questions--two short ones; the other one may 
require going on the record.
    Director Clapper, I know what your answer is, after hearing 
your opening statement, but, when you said, ``Looking back over 
my now more than half century of intelligence, I've not 
experienced a time when we've been beset by more crisis and 
threats around the globe.'' And you still stand by that. And--
correct?
    Mr. Clapper. Yes, sir. And if I'm hear next year, I'll 
probably say it again.
    Senator Inhofe. Yeah. Well, I appreciate that. You've been 
straightforward and honest about these things.
    General Stewart, you stated, and this--that we face a more 
diverse and complex problem than we have experienced in our 
lifetimes. Still stand by that?
    General Stewart. Absolutely, Senator.
    Senator Inhofe. Yes. Well, now, there's an assumption, when 
we're out in the public, out talking to real people and away 
from Washington, that we, who are on this committee, know a lot 
of answers that we don't know. And one of them that should be a 
very easy answer--and I want to get something from you guys 
that I can stand on--when we talk about the power, in terms of 
the strength and number of bodies in this--in ISIL or ISIS--in 
September 2014, we talked about that it's been an additional 
some--20,000 since this all started. I think we all agree on 
that. But, they said it was somewhere between 20- and 31,5- 
fighters that were in Iraq and Syria. Now we know, since that 
time, it's gone beyond that. Then, in August, they talked about 
from 80- to 100,000. Then, in November, one of the Kurdish 
leaders stated that the--ISIL's military had increased to 
200,000 fighters. Can you kind of give us an idea--and, number 
one, why it's so difficult to do, and, number two, something 
that we can use and quote you two as the sources?
    Mr. Clapper. It's--from my vantage, it's unfortunate these 
numbers get out. For one, we don't have what I would call 
Census Bureau door-to-door survey accuracy or fidelity over 
these numbers. They're very hard to come by. We have to derive 
them inferentially from a number of different sources. Ergo, 
even when we do come out with numbers, they're--you'll have a 
wide range. So, the current estimate is--that we're standing 
on, here, is somewhere in the range between 20- and 32,000 
fighters. Now, the difficulty here is assessing who's a core 
fighter who does this full-time, who may be a facilitator or 
supporter and do it part time, and all that sort of thing.
    I will say that the--this is one effect of the airstrikes, 
has been substantial attrition. They lost at least 3,000 
fighters in Khobani. For whatever reason, they wanted to do 
that. And, as well, what that's driving them to--now we're 
seeing evidence of conscription. So, the estimate that we're 
going with----
    Senator Inhofe. But, that's----
    Mr. Clapper.--right now, but this is very dynamic, is 20- 
to 32,000.
    Senator Inhofe. Yeah. We're--gosh, I--well, anyway.
    It may take a while to get into this, but I am--I'm very 
much--I was over in the Ukraine when they had their elections. 
And that's when they had the elections, and it was Yatsenyuk as 
much as Poroshenko. They were just elated. Both of them from 
different political parties, but the political parties are very 
pro-Western, and they were rejoicing in the fact that, for the 
first time in 96 years, the Communists don't have one seat in 
Parliament. To me, I thought, when that happened, there's not 
going to be any problem with us going in with weapons. And 
obviously, the Democrats and Republicans up here agreed with 
that. We have language in our last defense authorization bill 
that we had $75 million, where we were encouraging the 
President to use, through the European Reassurance Initiative, 
for weapons going in to be of assist to our best friend in that 
area.
    Now, I can't figure out why we don't do it. Let me just ask 
the two of you. Would you recommend it?
    Mr. Clapper. Sir, I think I have to answer two ways, here. 
One, institutionally, this is a policy issue. And----
    Senator Inhofe. Yeah, now----
    Mr. Clapper.--the Intelligence Community doesn't----
    Senator Inhofe.--let me make sure. I'm not talking about 
sending troops, I'm talking about sending lethal weapons.
    Mr. Clapper. I understand. I understand----
    Senator Inhofe. All right.
    Mr. Clapper.--what you're asking, and that's what I'm 
answering, I think. So, from an intelligence community 
perspective, that is a policy issue. We're down in the engine 
room, shoveling intelligence coal, and the people up on the 
bridge, to use a Navy metaphor, drive the ship and rearrange 
the deck chairs.
    I have a personal view. And it is only that----
    Senator Inhofe. All right.
    Mr. Clapper.--that I would favor it. But, that's a personal 
perspective, and----
    Senator Inhofe. That's what----
    Mr. Clapper.--it does not----
    Senator Inhofe. And I appreciate your----
    Mr. Clapper.--represent an official company policy of the 
Intelligence Community.
    Senator Inhofe. I appreciate that very much.
    And General Stewart?
    General Stewart. Sir, I'm trying to stay out of the 
personal----
    Senator Inhofe. I know you're trying to stay out, but----
    General Stewart. So----
    Senator Inhofe.--it's time that we--we've got to get this 
done.
    General Stewart.--we stand by the assessment, that lethal 
aid couldn't be delivered quickly enough or change the military 
balance of power on the ground.
    Senator Inhofe. So, you're for lethal, right?
    General Stewart. It would not change the military balance 
of power, and it couldn't get there quickly enough to make a 
difference, and that Russia will up that----
    Senator Inhofe. As a military guy, do you buy this argument 
that we might be provoking negative reaction from Putin? You 
know, I listen to--I see what our--what the President is doing 
on--every once in a while. And they talk about, ``Well, we 
don't want to make the terrorists mad at us, they might hurt 
us.'' And, you know--so, what's your opinion about this 
statement on provoking a negative reaction from Putin?
    General Stewart. I think as important as Moscow placed on 
Ukraine to keep it in their near abroad, to keep it out of the 
EU, to keep it out of NATO, I think they will up the ante if we 
do any lethal aid or take any actions to bolster the 
Ukrainians. Whether that provokes the President or not, it's 
hard for me to say. The realities are, they see this as central 
to their foreign policy, they see it as critical that they keep 
Ukraine out of NATO, to keep it out of the Western sphere of 
influence----
    Senator Inhofe. Yeah, and----
    General Stewart.--and exert influence. And they'll react 
accordingly, I suspect.
    Senator Inhofe. Thank you, General.
    Chairman McCain. Well, I'm sure that Hitler felt the same 
way, General Stewart, about the Sudetenland, about German-
speaking people. I'm sure he felt exactly the same way that 
Vladimir Putin does. And, for you to say that we can't get 
lethal weapons there quickly enough, that defies logic, 
General. I know how we can transport weapons. We can put 'em on 
aircraft and fly 'em over there.
    General Stewart. But, you----
    Chairman McCain. How do you justify a statement like that?
    General Stewart. Senator, I believe the answer was, ``We 
couldn't deliver lethal aid sufficiently--quickly enough to 
change the military balance of power on the ground.'' And I 
think I stand----
    Chairman McCain. Quickly enough? What does that mean? I--
it's----
    General Stewart. Russia and the separatists have 
significant interior lines that they can resupply a lot faster 
with a lot heavier weapons than we could deliver in--so, it 
would be a race to see who could arm. And I think, with their 
interior lines, they would have a significant advantage on the 
ground.
    Chairman McCain. I'm sure that the Russians had a 
significant advantage when they invaded Afghanistan. I'm sure 
that, throughout history, when we've helped people who have 
been invaded and oppressed, and when we haven't, what is--the 
consequences have been. Very disappointing, General.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for your testimony.
    I want to go back to the Middle East and to what's 
happening in Syria. To what extent is Assad's continued--I 
don't want to say ``control over Syria,'' because I appreciate 
that he doesn't have control over the entire country--but, to 
what extent is his position there an obstacle to our fight 
against ISIL? And is there--what's the thinking about how to 
change that dynamic?
    Mr. Clapper. Well, I--that--the last part of your question 
is a tough one. I--he maintains the control because of his 
control of the economic levers, to the extent that they have 
them. His focus is on the--what I would call the ``Western 
spine,'' say from Aleppo to Damascus. That's where most of the 
population is, and the major commercial entities, to include 
the ports. So, he has surrounded by people who are committed to 
preserving that, because they benefit from it. They are the 
minority. The Alawites are, you know, only 10 percent. So, for 
them, this is an existential struggle. And, of course, the 
irony is that we actually are in common in--both Assad and his 
regime are opposed to and fighting ISIL, as we are. And so, 
it's a very, you know, complex array of factors there.
    Senator Shaheen. And to what extent have--has that affected 
other Arab countries in the Middle East and their willingness 
to engage with us?
    Mr. Clapper. Well, there's been, you know, I think, 
somewhat of a change. It's gradual. But, the fact that many of 
these countries aren't participating in the coalition that 
General John Allen has been organizing. I do think the brutal 
savagery of the ISIL, and the beheadings and then the emulation 
of the Jordanian pilot, have had a galvanizing effect on 
opinion in the Mideast region. So, I think there is more of a 
willingness to cooperate. There certainly is, from the 
standpoint of intelligence sharing and our partnering with our 
counterparts in that part of the world.
    Senator Shaheen. And are you optimistic that Turkey will 
become more engaged than they have been?
    Mr. Clapper. No, I'm not. I think Turkey has other 
priorities and other interests. They are more focused on what 
they consider to be the threat: the KGK, the Kurdish 
resistance, if you will, in Turkey. Public opinion polls show, 
in Turkey, they don't see ISIL as a primary threat. They're 
more focused internally on their economy and this sort of 
thing. And, of course, the consequence of that is a permissive 
environment, in terms of--because of their laws, and the 
ability of people to travel through Turkey en route to Syria. 
So, somewhere in the neighborhood of 60 percent of those 
foreign fighters find their way to Syria through Turkey.
    Senator Shaheen. And to move to Iraq, to what extent is 
Iran's presence in Iraq an obstacle to Abadi's ability to make 
the kinds of overtures and engage the Sunnis in the way that he 
needs to in----
    Mr. Clapper. Well, he--he's in a very----
    Senator Shaheen.--order to keep the country unified?
    Mr. Clapper.--very difficult position, having to balance 
these competing constituencies. And clearly the Iranians have 
influence. They're there. They're helping, as well, in the 
fight against ISIL. He's got issues with his own Shi'a power 
base, since they're competitors to him. There's still great 
reluctance to fully include the Sunnis, which must happen. 
There are two laws in their Council of Representatives that are 
extremely important to Sunnis: de-Ba'athification and----
    Senator Shaheen. Right.
    Mr. Clapper.--anti-terrorism laws. So, he's in a very, very 
difficult position.
    Senator Shaheen. What I'm trying to ask you to respond to, 
and I haven't been as articulate as I should, I guess, is, To 
what extent does--is Iran weighing their efforts to under--to 
take on ISIL versus the Sunni's role in Iraq? I mean, are they 
balancing that? Are they just----
    Mr. Clapper. Well, the fundamental interest of the 
Iranians, of course, is to preserve a Shi'a or Shi'a-friendly 
government in Baghdad. So, that is kind of their underlying 
policy objective. And, of course, ISIL poses a threat to the 
Iranians, as well. And so, they have an interest there in 
sustaining their aggressive combat, if you will, and assistance 
in opposing ISIL.
    Senator Shaheen. My time is up. Thank you both.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, gentlemen, for appearing before us today. I do 
appreciate your service.
    I'd like to go into the discussion with Iran a little bit 
more. Their Iranian military is arguably one of the most 
deployed forces in the Middle East from--in probably more than 
a generation. But, they have been into areas, such as Syria, 
Iraq, Lebanon, Bahrain, Yemen. So, Iran is effectively 
reinforcing and increasing its sphere of influence in the 
region. And it is also defending its allies in ways which 
afford Iran the ability to decisively engage its adversaries 
and immediately alter any battlefield momentum. So, we have 
seen a progression of expert witnesses in front of this very 
panel, and many of my colleagues and these witnesses have 
stated that they do believe the President is failing in this 
area of setting a national strategy. And his failure to 
construct a comprehensive strategy against Iran has led to 
Iran's expanded influence in the Middle East.
    So, I would like to hear your assessment, Director Clapper, 
on, of course, the tools that Iran has in its pocket, and 
whether we are effectively engaging Iran, what we need to do to 
gain a national security strategy. I'd like to see all the 
pieces put together, please.
    Mr. Clapper. Well, I can--Senator, I can comment on the 
intelligence aspects of this. national security strategy, 
again, is not my compartment.
    But, the way that Iran is exerting its influence, I think, 
most prominently in the region is through the--their 
organization called the Iranian Republican Guard Corps, Quds 
Force, which is a combination of intelligence and special ops, 
has extensive commercial enterprise businesses, and this sort 
of thing. And so, they use that as their instrumentality, as 
they are now in Iraq, for extending their influence, as one of 
their proxies. And, of course, another one of their proxies is 
the Hezbollah, which they have had a long client-subordinate 
relationship with. And so, they use those as sort of the 
physical manifestation of their spreading their influence in 
the region. And, certainly from an intelligence perspective, 
we--you know, we try hard to keep tabs on those entities as we 
can from intelligence.
    Senator Ernst. And is there a way, Director, that we can 
more effectively engage our neighbors in the Middle East to 
push back on Iran's influence?
    Mr. Clapper. Well, we--from an intelligence perspective, 
which is all I can speak to, we do engage with our intelligence 
counterparts in all of these countries, those who are willing 
to engage with us, particularly the Sunni countries, who also--
who do harbor great reservations about Iranians--Iranian 
objectives.
    Senator Ernst. Thank you very much.
    I'll yield back my time.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And thank you both for being here.
    In regards to Iraq, what do you think are the biggest 
challenges that the Iraqi forces face right now in pushing ISIS 
back from Mosul and Tikrit?
    Mr. Clapper. Well, a first thing, I think--and General 
Stewart can speak to this as well, since he's----
    Senator Donnelly. Right.
    Mr. Clapper.--served there--but, obviously, the Iraqi 
Security Forces, particularly the army, need to reconstitute, 
after the precipitate losses in northern Iraq last June, where 
about four-and-a-half divisions or so of Iraqi forces just kind 
of melted away. So, that is--first order of business, I think, 
is to reconstitute them, which includes training and, 
hopefully, instantiation of a will to fight. They have 
challenges, clearly, with command and control, with leadership, 
with logistics. So, they've got a whole range of issues there 
that need to be attended to before they'd be in a position to, 
certainly unilaterally, retake a--you know, a place like----
    Senator Donnelly. General, how long do you think that'll 
take, to try to get them back up to speed?
    General Stewart. So, if I could put it in context, last 
fall they had about 185,000 in the Iraqi Security Force, about 
three divisions--the 6th, the 9th, and the 7th Division. All 
three of those divisions are engaged today, so they're not 
getting that continuous training. They're engaged in 
operations. They're building three additional divisions. Those 
three divisions, you're talking about building from the ground 
up. So, to build from the ground up individual soldiers----
    Senator Donnelly. When are they ready?
    General Stewart. We're talking probably 6 to 9 months, at a 
best estimate.
    Senator Donnelly. Director Clapper, here at home, when I 
look at what's going on with ISIS and see the threats that 
occur here, and the threat levels that we had last year--if you 
had to put it in perspective--this time last year, this time 
now--and it's an inexact art, percentagewise--significantly 
increased threats now than we were having last year at this 
same time, about the same?
    Mr. Clapper. It's probably about the same, sir.
    Senator Donnelly. Okay. And in regards to ISIS--so, our 
push is to get 'em out of Iraq, then to remove them from 
Syria--when we get to that point where ISIS is gone, does that 
threat level come down, here at home?
    Mr. Clapper. It would--I--yeah, absolutely it would, I 
think, but--at least that would reduce the threat some. But, 
again, as--if the caliphate is extended to other locations, 
which is what ISIL is trying to do--Libya, Egypt, et cetera--
then we'll have that to contend with. So, yes, there would be 
some reduction of threat because--if ISIL were defeated in both 
Iraq and Syria, at least you are--have done away with a 
substantial safe haven, which would serve to reduce the threat 
some.
    Senator Donnelly. When you look over to Libya, is that the 
next place, or one of the key places, they look now as, 
``Here's open space that's failed. Here's a place where we can 
try to grow''?
    Mr. Clapper. It is probably the most troublesome, from that 
standpoint, just because of the conditions in Libya--you know, 
two competing governments fighting with each other. There are, 
in addition to ISIL, probably six or eight other terrorist 
groups that have gathered in Libya. So, it's a magnet because 
of--essentially, it's ungoverned.
    Senator Donnelly. And when you look at a place that's 
ungoverned, you know, not too far from the Mediterranean, right 
there, what do you see--like you said, you don't set all the 
strategy; you review all the intelligence--but, what do you see 
as the best steps we can take in that region right now--and, 
General Stewart, you, too--in Libya, to try to change the 
course of what's going on?
    Mr. Clapper. Well, from an intelligence perspective we, I 
think, clearly need to step up our game from an ISR 
perspective, where we can operate. I think there's a lot of 
merit to partnering with the French, who have sort of staked 
out their claim in the Sahel region of North Africa. So, we 
have worked with the French, particularly from an intelligence 
perspective, to share with them. They have history and heritage 
there, access, and have committed to deploying troops in that 
area--boots on the ground, which we can supplement. So, those 
are things, from an intelligence perspective, that we--so, as 
we get a better handle on just what is going on in that part of 
the world.
    Senator Donnelly. And I see my time is up, but I just want 
to ask one very quick question that you can just----
    How are we doing on cooperation, interagency, here at home? 
Better than ever before?
    Mr. Clapper. Well, that's, frankly, the reason my job was 
created, after September 11, is--promote integration here in 
this country. I'd like to think it's better. I was around for a 
long time before September 11, so I--it is better, but it's--
there was always improvement. We're not as mature in the--on 
the domestic side, in coordinating with State, local, tribal, 
et cetera, but I think we've made a lot of progress there, and 
we'll continue. And it's something I push very hard.
    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Director Clapper, what do you assess is Assad's likely 
response to the introduction of our United States-trained 
Syrians to move in against ISIL in Syria? And do you assess 
that Assad will attack them?
    Mr. Clapper. Well, if the--as long as Assad is--believes 
somehow that this--once it gets up sufficient center of mass, 
you know, enough force--as long as he felt as though this were 
something to be used only against ISIL, he'd probably be okay 
with it. But, I think he'd have a hard time determining whether 
it's a threat to ISIL or a threat to him. So, I could see a 
circumstance where, depending on what information he's 
getting--and we wonder about that sometimes--that he could 
easily consider that force as a threat to him.
    Senator Fischer. Do you believe that you're receiving good 
intelligence from that--from Syria, from that area, in regards 
to this?
    Mr. Clapper. No, we have a lot of gaps for--intelligence 
gaps in Syria, principally because we're not there. So, no, I'm 
not satisfied with that. We're working at it, obviously, to 
come up with more intelligence from Syria. But, that's a tough 
problem for us.
    Senator Fischer. Have you received any intelligence that 
would, I guess, give you comfort, in that the moderates that 
would be trained by us would, in fact, be fighting ISIL and not 
Assad?
    Mr. Clapper. I think a more fulsome response to that would 
be best in a classified environment. But, I guess the short 
answer would be yes.
    Senator Fischer. Okay. And how do you--how would you assess 
Russia and Iran will be looking at these trained forces?
    Mr. Clapper. Well, probably wouldn't like it. I think, at 
this point, you know, Russia looks at Syria as a client, as an 
ally, someone that they provide support to. So, again, it would 
be almost the same perception problem with the Russians as it 
would be with Assad. If--they could probably rationalize, if 
it's focused on ISIL, but if it be--it's perceived as a threat 
to the regime, then I think that they would react negatively to 
it.
    Senator Fischer. And if they would perceive it as a threat, 
what type of force would they employ, then? You said they'd 
react negatively.
    Mr. Clapper. The Russians?
    Senator Fischer. Yes.
    Mr. Clapper. I'd--well, I--this is really speculative, 
hypothetical. I don't think they would necessarily deploy 
combat forces to Syria. They would probably step up military 
equipment support, which they've been doing, intelligence 
support, if, in fact, they, too, perceive that what we were 
doing was a direct threat to Assad.
    Senator Fischer. Okay. And if I could shift gears, here, 
I'd like to ask you something about cybersecurity. As you know, 
the Senate is looking at a bill to authorize greater 
information sharing. There are some concerns out there about 
the entities that the--that we might be sharing that 
information with. I'd like to ask you, How do we balance that? 
How do we balance the risks between really valuable information 
sharing and the need not to provide information either to 
private individuals, hackers that are out there, or to a 
foreign government that may be able to pick up information that 
we give our colleagues, in trying to work with this, that they 
could then, in turn, use against us?
    Mr. Clapper. Well, that's exactly the issue. In fact, 
that's a general dilemma that we have across the board, whether 
it's cyber or any other dimension. You know, the--sharing 
versus security. And that's the same issue here. There is no 
silver-bullet answer here.
    I do think there, though, needs to be some form of 
legislation that would protect, from a liability standpoint, 
commercial concerns so that they would more freely--they'd be 
in a position to share with the government. This is not 
something government can do all by itself. There has to be--
given the pervasiveness of cyber in our society, we must have 
the partnering of the civilian sector, which means promoting 
sharing, both ways.
    But, you're right, there's always this concern, there's 
always a tradeoff between security and sharing.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    To follow up on that, I believe that it's critically 
important that we move legislation that provides for that 
sharing so that we have more vigorous defense. And, indeed, the 
Intelligence Committee reported out a bill last summer. I 
understand that that bill has been somewhat renegotiated, 
reworked, and it will be moving forward reasonably soon. I hope 
that that's one of the Congress's highest priorities. I don't 
know how many warnings we have to have.
    Turning to ISIS, what are the chances that it will wear out 
its welcome within the areas where it is now trying to govern, 
because of the weight of its brutal and harsh ideology? And I 
guess the followup question is, Do we have any intelligence 
about what's going on inside Mosul, inside Raqqa, in terms of 
the citizens and how they feel about the--this new regime?
    Mr. Clapper. Senator King, to answer the question, I think 
that is a very important point, and we are seeing anecdotal 
evidence of resentment, and even resistance, in those areas 
that are controlled by ISIL, because of their brutal approach 
to enforcing Sharia.
    I think the challenge--and we're already seeing indications 
of this--that ISIL has--as I mentioned in my oral statement, 
assuming some of the accouterments are some of the 
characteristics of a nation-state, and now they've having 
challenges with governance--they do not have enough financial 
wherewithal to provide the services--municipal services that 
are required to run a city of a million people. So, we're----
    Senator King. You mean they're running----
    Mr. Clapper.--electricity----
    Senator King. You mean they're running a deficit? Maybe we 
could ship them the sequester in a sealed railroad car. 
[Laughter.]
    Mr. Clapper. That'd be good.
    We're seeing signs of electrical--electricity outages, 
shortages of food and commodities. The airstrikes against 
their--the refining capability has forced them to go to a lot 
of individual mom-and-pop refining stills. So, they're going to 
have trouble generating the revenue that would be needed to 
actually run the areas they have captured. And that--and we're 
seeing anecdotal evidence of the strains and the stresses 
that's putting particularly on the city of Mosul and its 
citizens.
    Senator King. Does that suggest that perhaps a containment 
strategy instead of a reinvasion strategy--General Stewart, 
you've testified recently about the proportion of troops it 
takes to root somebody out of an urban setting. Could you 
articulate that for us?
    General Stewart. If I recall, we talked about the ratio of 
offensive forces to----
    Senator King. Correct.
    General Stewart.--take a urban environment, something in an 
order of 10 to 1, offense versus a defense. That requires a 
very skilled, determined force to take that kind of action.
    There is something to be said about ISIL wearing out its 
welcome. It's precisely what turned al Qaeda in Iraq before--
the brutality, the inability to govern--that convinced the 
tribes that there may be a better option.
    Senator King. And ISIS is much more brutal than--and 
difficult than al-Qaeda, as I understand.
    General Stewart. The question is, Where is the tipping 
point? And it's very hard to determine where that tipping point 
where, where the Sunnis in Anbar will go, ``This is enough. 
There's a different option, and we ought to counter ISIS.'' So, 
I think there will be a tipping point at some point. We just 
don't know where that will be.
    Senator King. But, a--as you just testified, a 10-to-1 
ratio of offense to defense going into a city like Mosul means 
you're going to have a large, well-trained force. And it's just 
a question of whether that's going to be necessary, rather than 
let it fall of its own weight. And I guess that's a question of 
timing.
    General Stewart. It's a question of timing, yes, sir.
    Senator King. Quick question on cyber. It concerns me that 
all of our discussions about cyber are essentially defensive. 
We're talking about legislation to share information, we're 
talking about greater rebutting of these kinds of intrusions. 
Should we think, Mr. Director, about developing an offensive 
capability to provide a deterrent? It concerns me that now a--
particularly a state actor can act essentially without fear of 
consequences. Whereas, the theory of deterrence in our nuclear 
field stood the test of time for 75 years. Should we think 
about a deterrent capacity so that people know that if they 
attack us in any kind of critical way, they're going to suffer 
in return?
    Mr. Clapper. Yes, we--I agree with you, Senator King. We--
and we do--you know, we do have offensive capabilities that I 
can't go into here. I think the issue, though, is, What is the 
policy? What is it that would achieve cyber deterrence? And 
that is an issue that, at the policy level, we're still, 
frankly, wrestling with.
    Senator King. But, it is one that--I'm delighted to hear 
that it is being wrestled with, and I think I heard you say 
that this is something that we need to consider. And, of 
course, to go back to Dr. Strangelove, if you have a deterrent 
and don't tell people about it, it's not a deterrent.
    Mr. Clapper. Well, that's true.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank the Chairman, thank both of 
you for what you do to protect the country.
    And I wanted to ask about Iran. And I know that in, your 
written testimony, you have said--and you previously testified, 
Director Clapper, before this committee, that Iran was on 
track, by this year, in terms of its ICBM program. So, since 
the negotiations have been ongoing on the nuclear program, has 
Iran continued to develop its ICBM program? And can you tell me 
what the status and the goal of that program would be from 
Iran?
    Mr. Clapper. The Iranians have continued on their space 
launch vehicle program, and recently put into orbit a 
satellite. And obviously, that--any work they do on missile--
missiles could conceivably go towards work on an 
intercontinental ballistic missile. And it's going to be hard 
to determine whether a given missile is launched for the 
purposes of a space launch vehicle, a satellite they want to 
put into space. Because if they do that, they also acquire 
proficiency, expertise, and experience in what could be a--an 
ICBM. And so, it's a hard question to answer, because it has a 
lot to do with intent. But, there's no question they have the 
technical competence.
    Senator Ayotte. Do you think they have good intent, in 
terms of what they're doing with their missile program?
    Mr. Clapper. Well, it's--no. I mean, I think the huge 
medium-range ballistic missile force they have today that's 
operational is--you know, I think poses a threat to the region 
now. So----
    Senator Ayotte. And if they----
    Mr. Clapper.--no, it's not.
    Senator Ayotte. And if they were to get ICBM capability, 
that obviously poses a threat, in terms of our country, and the 
East Coast in particular.
    Mr. Clapper. Well, it could. I mean, it, again, depends on 
what they actually do. If they actually are able to--you know, 
it's theoretically possible they could attempt to launch one 
this year. So, this is something we just have to watch. But, 
again, the challenge for us is going to be, you know, 
determining just what their intent is.
    Senator Ayotte. Could you help me understand also, as we 
think about Iran's activities, what types of other activities 
they're engaging in to establish regional hegemony?
    Mr. Clapper. Well, they are certainly trying to, where they 
can, reach out diplomatically. The organization that we watch a 
lot is the IRGC Quds Force that I mentioned previously, their 
intelligence activities throughout the region. But, they will 
look to establish their influence by whatever mechanism they 
can.
    Senator Ayotte. So, as I understand it, obviously they 
continue to support Assad, they have continued to support 
groups in the region, including Hezbollah. What other 
activities--are they still--would you still characterize them 
as one of the largest state sponsors of terrorism in the world?
    Mr. Clapper. They are still classified that way, yes.
    Senator Ayotte. Thank you.
    I would like to follow up on an issue that is hitting us at 
home, but I think has international implications, and that is 
of the international drug trafficking that's occurring. And, in 
particular, my home State of New Hampshire, we've had a 
devastating number of people who are dying from heroin 
overdoses. And so, I would certainly like to hear your opinion, 
General Stewart, about what is happening, in terms of drug 
trafficking--in particular, heroin--and how is--are the 
networks that are being used for drug trafficking, are they 
also being used to fuel terrorism?
    So, General Stewart, if you could share that with me. And 
I'd be curious, Does Southern Command and Northern Command--
what do they need, in terms of fighting heroin and also the 
drug trafficking that can be used to fuel terrorism, as well?
    General Stewart. I'll have to look at the numbers again, 
but I don't think drug trafficking is on the increase from 
our--through our southern borders. I think Pakistan and 
Afghanistan heroin production continues about at the norm that 
we've seen over the last several years. We've seen no 
indications that the drug trafficking routes are being used for 
terrorist activities or hostile actions. And I spoke recently 
to the folks down in Southern Command, and I don't recall any 
request for additional capability to help them with the problem 
in the south.
    Mr. Clapper. If I can add, Senator.
    Senator Ayotte. Yes.
    Mr. Clapper. I well recall, I think it was last year, when 
General Kelly, Commander of SOUTHCOM, testified with then-
General Jacoby, who was the NORTHCOM Commander--they testified 
together. And one of the challenges with drug trafficking is 
not so much a lack of intelligence--we have a lot of 
intelligence on it--is the lack of resource, particularly in 
the case of the ability to interdict, by the Coast Guard and 
others. And that, since General Kelly's testimony, has been--is 
being addressed. I've spoken--discussed that with the 
Commandant of the Coast Guard, and we are putting more of his 
capability, deploying more ships and planes, in the southern 
hemisphere.
    But, I think I would take, you know, a little mild 
disagreement, here, with Vince, that I think this is a--it is a 
problem, the--throughout this region, not only across the 
border, but through Puerto Rico is another vulnerability we 
have. And so--and we have pretty good intelligence on this.
    I think the challenge has been--and again, sequestration 
has had impacts--is on the ability to react and interdict.
    Senator Ayotte. I thank both of you. And I also noticed 
that, in your testimony, Director Clapper, you noted the 
incredible surge of heroin-related deaths since 2007. So, thank 
you. It's a horrible problem.
    Senator Reed [presiding]: Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you both for your testimony, both earlier in the 
week and today. Mindful that this is a--not a classified 
hearing, a few questions.
    My perception of the level of American and allied 
intelligence about the extent of the Iranian nuclear program is 
that, before November 2013 and the beginning of the Joint Plan 
of Action (JPOA), the level of intelligence was good. Certainly 
there were gaps and challenges, but at least, if I go by public 
reports, the level of intelligence at--that all have, together, 
enabled some actions that have slowed the Iranian program.
    One of the reasons I supported the JPOA is my assumption 
that our intel sources haven't gone away, but the inspections 
that were allowed--required under the JPOA, together with 
existing intel sources, would even give us a better level of 
intel, which would (a) help us determine if we needed, God 
forbid, to take military action to stop the program, and (b) 
enable us to better target any military action if, God forbid, 
we should need to take it. Am I looking at this the right way?
    Mr. Clapper. Yes, sir, I think you are. I will tell you 
that the, you know, huge--that the important aspect of any sort 
of agreement we might reach with the Iranians would be a very 
invasive and thorough surveillance and inspection capability on 
the part of International Atomic Energy Agency (IAEA). I think 
that would be requisite to any kind of an agreement.
    I--you know, we have, I think, a reasonably capable 
intelligence capability, but I wouldn't want to rely on it, 
only, for verification that, in fact, the terms of the 
agreement were being lived up to.
    Senator Kaine. And, Director Clapper, I agree with the last 
point you made, is--I would look at any final deal, if one is 
reached, in analyzing its content and determining whether I 
support it or not. The degree of inspections, to me, is the key 
factor, because that, combined with existing intel, is our 
guarantee of an ability to (a) know if there's going to be a 
problem, and (b) take appropriate action--target an appropriate 
action to eliminate the problem.
    You indicated, Director Clapper, in earlier testimony, that 
your intel suggests that Iran is looking at the nuclear 
negotiation as sort of separate from this whole question of 
Iranian bellicosity and adventurism in the region, that these 
are sort of separate items. My sense is, there is at least one 
connection between the two. And this also bears on my analysis 
of any deal, if reached. And that is this. Any deal, if 
reached, would involve sanctions relief--i.e., dollars to Iran. 
And they use dollars to carry out adventurism. I think--you 
know, just from what I've heard, some of the sanctions relief 
already may have enabled them to invest more heavily in running 
Syria as a puppet state or invest more heavily in the Quds 
Force or other agents that are destabilizing governments 
outside of their own borders. And so, to at least that extent, 
as we look at any deal, if there is such a deal, there could be 
a connection between a deal and Iranian bellicosity outside 
their borders.
    Mr. Clapper. Perhaps, sir. And, in a classified 
environment, I can go into this a little bit more. But, the 
sanctions have had impacts on--financial impacts on the 
Iranians, and it--that, in turn, has impacted funding for the 
military and for even the Quds Force. So, I----
    Senator Kaine. Yeah.
    Mr. Clapper.--perhaps best left to a classified environment 
for----
    Senator Kaine. Thank you.
    Mr. Clapper.--more details.
    Senator Kaine. We have had two meetings of the Senate 
Foreign Relations Committee, in the last 3 weeks, where we've 
heard from leaders from the region who are engaged in the fight 
against ISIL. King Abdullah was with us about 3 weeks ago, and 
he told us, in a coffee at the Foreign Relations Committee, 
that American ground troops as part of this battle of ISIL 
would not be a good idea, in his view. Yesterday, we had a 
coffee with the Emir of Qatar, Sheikh Tamim, who also said 
American ground troops is a bad idea because it would convert 
the perception of the battle against ISIL to the United States 
or west against ISIL rather than, ``We are engaging in a battle 
to clean up our own regional extremists. And we want the--we 
want America's help on that.'' But, they both offered us advice 
that American ground troops would be problematic, because it 
would enable, from a propaganda standpoint, this being 
positioned as American or Western occupation, and that America 
is the point of the sphere--the spear against that terrorist 
threat. I'd just report that to you, and I would be curious to 
either of your's--your reactions to those comments from trusted 
allies.
    Mr. Clapper. Well, the--I have had similar discussions with 
the King, and he is a staunch proponent, an articulate one, 
for, you know, ``the people in the region have to take this on 
and have to lead,'' and that, you know, the United States--
anytime we show up someplace, then, you know, we're a--we're, 
by definition, occupiers. He--you know, he recognizes, as do 
many others, that, at some point, there will be a need for 
boots on the ground, but hopefully others, not the United 
States, because that engenders its own challenges and issues.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Sessions.
    Senator Sessions. Thank you, Senator Reed.
    And just to follow up on Senator Kaine's comment, I think 
we need to reestablish where we are, or confirm where we are, 
not--Director Clapper, is it still our policy that no options 
are off the table and that Iran should not have a nuclear 
weapon?
    Mr. Clapper. That's my understanding, yes, sir.
    Senator Sessions. That's your understanding. Do you have 
any doubt about it?
    Mr. Clapper. I take what the administration said for its 
word, that all options are not--no options are off the table.
    Senator Sessions. Well, I think that's true. We had a very 
important hearing yesterday on nuclear forces and strategic 
forces. And one of the things I came away with was greater 
concerns than I had before about the proliferation impacts, the 
instability in the region that could occur from a nuclear-armed 
Iran. And I just think that we've got to be careful about that. 
And I do remember that the CIA reported, in, what, early 2000s, 
that Iran wasn't intent on building a nuclear weapon. That was 
wrong, was it not?
    Mr. Clapper. Well, up until 2003, they were. Right now, 
they--and, of course, the--we believe the Supreme Leader would 
be the ultimate decisionmaker, here. And, as far as we know, 
he's not made a decision to go for a nuclear weapon. I do think 
that they certainly want to preserve options across the 
capabilities it would take to field one, but right now they 
don't have one, and have not made that decision.
    Senator Sessions. Well, we've been----
    Mr. Clapper. But, I agree with you, it would be very--it 
would be very profound and very destabilizing if they were to 
achieve a nuclear weapon.
    Senator Sessions. Is--I mean, it really makes us face some 
really tough choices. Our--I don't--but, I don't think there's 
any doubt they were--they would never--they never relinquished 
the intention to build a weapon. The CIA report was in error. 
And they are closer today. And every month that goes by, it 
seems they get closer.
    General Stewart, I had the honor to be briefed by you in 
2006 or 2007 in the al-Anbar region in Iraq. And you gave us a 
remarkable briefing about how you had--the marines had worked 
with the tribal leaders, and they began The Awakening that 
allowed them to remove al-Qaeda from that region after great, 
great commitment by the marines and other forces.
    This is what I would like to see. I am not for any major, 
massive American troop leadership in Iraq, but I do think--and 
I want you to give us your best judgment--but isn't it true 
that even a few embedded forces with the Iraqis with the 
ability to communicate to aircraft and bringing in smart bombs 
and to assist them, that that does encourage them, and that the 
Iranian forces fight better under those circumstances than if 
they don't have the confidence that a--even a small American 
presence with them brings?
    General Stewart. Senator, let me answer the question this 
way. Senator Kaine raised a great point of what we've heard. 
The best propaganda victory that we could give ISIL is to make 
this a fight between the West and Islam--and ISIL. But, being 
able to provide ISR, precision fires, some command and control 
will certainly help those forces--Iraqi forces--to be much more 
effective on the ground than left to their own devices.
    Senator Sessions. And--all right, I agree with that. But, 
I'm just asking you, from your experience with them, isn't it 
true that there is more confidence, even if there are just one 
or two Special Forces there with them--not out in the--leading 
the fight--
    General Stewart. Right.
    Senator Sessions.--but with the forces that are advancing?
    General Stewart. There is a great sense of comfort when 
U.S. forces are with our partners to provide precision, to 
provide command and control, to help bolster leadership. There 
is some advantage, yes, sir.
    Senator Sessions. With regard to the momentum that we have 
there, aren't there--I mean, we have a large Iraqi army. And--
--
    Is my time up? My time's up, Mr. Chairman. Thank you. Maybe 
we'll----
    Chairman McCain [presiding]. If you want to finish your 
question----
    Senator Sessions. How--are they--can't some of those 
divisions, some of those units, be utilized now to blunt the 
momentum that they have--that ISIS has achieved, and maybe take 
the bloom off their rose and give some confidence again, in the 
Iraqi forces, that they can retake the territory, and the 
sooner is better than later?
    General Stewart. Yes, Senator. In fact, they have blunted 
the ISIL advance. And, best as we can guess, ISIL has lost 
territory over the last couple of months. So, it's not just the 
Iraqi Security Forces. You have the Kurdish forces that are 
involved. And they are making a difference. I wouldn't 
categorize the difference as significant, but they are, in 
fact, causing ISIL to lose territory at this point.
    Senator Sessions. We've been training them for a decade. 
Not as if they need another--I don't know. I'm--a little odd 
that we need another 6 to 9 months of training, when I thought 
we were training the Iraqi armies for nearly a decade.
    General Stewart. When we talk about the 6 to 9 months 
additional training, it is to deal with an urban fight, which 
is very, very different, very complex, requires a great deal of 
skill, a great deal of precision to be successful.
    Senator Sessions. Thank you, General, in your leadership 
and your commitment to fight this----
    Chairman McCain. Also has to do with the collapse of the 
Iraqi army.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thanks, both of you, again for being here. And just a 
couple of questions I have.
    Following up on the Iran nuclear capabilities that they may 
have, since we know that they haven't dismantled--they might 
have downgraded some of their enriched uranium--are we just 
prolonging the inevitable? I mean, they're going to be able to 
get up to enrichment and to armament speed pretty quickly, if 
they desired, unless there's an absolute dismantlement of 
their----
    Mr. Clapper. Well----
    Senator Manchin.--capabilities. Director Clapper?
    Mr. Clapper.--that's obviously the concern, and that's why 
the importance of intrusive and comprehensive surveillance and 
inspection is so critical, to make sure they don't, 
particularly, enrich to highly enriched uranium.
    Senator Manchin. But, we're not doing away with any of 
their centrifuges. They're not downgrading some of the things 
that they can, or taking away their capabilities. I don't think 
our agreement's----
    Mr. Clapper. Well, that's----
    Senator Manchin.--going to achieve that.
    Mr. Clapper.--that's to be determined. That's a--you know, 
the--and I don't want to talk too much about this----
    Senator Manchin. Sure.
    Mr. Clapper.--because of the delicate state of play with 
the negotiations, themselves. But, that's all in play as part 
of the negotiations.
    Senator Manchin. Well, I have a concern.
    If I could switch gears over to China and--basically, our 
partners in Asia-Pacific area, especially Taiwan. They're 
growing uneasy about China's access area denial strategy which 
seeks to limit American power in that region. Can you please 
update us on China's effort to deny American access to the 
Asia-Pacific region, sir?
    Mr. Clapper. Well, the Chinese--and I can't go into a great 
deal of detail here, but the Chinese are embarked on extremely 
impressive military modernization program across the board. And 
their modernization program is deliberately designed to 
counteract or thwart what they feel are our strengths; meaning 
carrier aviation, our bases, C4ISR, and our abilities in space. 
And they are doing specific things in each one of those realms 
to deny us, first, potentially, surveillance, command and 
control, as well as what they view is our primary weapons--our 
primary strengths. I can certainly go into--in more detail if 
you're--if you'd like, in a classified setting.
    Senator Manchin. Okay. I'm just--I guess you're not able to 
speak about their developing capabilities within the last 10 
years or what they're accelerating. I'm understanding they're 
accelerating very fastly. You said they're impressive.
    Mr. Clapper. They are. And they also are getting more and 
more into the realm of indigenously designing and producing 
things, rather than relying on others, notably the Russians.
    Senator Manchin. Okay. Let me see, I had one more here for 
you.
    We talked about, I think, in a closed setting--you might be 
able to talk about it in generality here--as far as ISIS, their 
ability, as far as financial ability, to attract the dollars 
they do, be able to operate the way they can. And are we having 
any success in shutting down that money flow?
    Mr. Clapper. Well, they--again, I'll have to speak in 
generalities, here--they acquired a lot of funding initially, 
some of which was derived from overrunning Iraqi banks.
    Senator Manchin. Sure.
    Mr. Clapper. That's going to dry up. And, of course, the 
airstrikes against the oil has made that--forced them to go to 
sort of mom-and-pop stills. And, as a consequence of the 
brutality, the donations that they've received are tapering 
off. So, I think, again, this says something about an 
attrition----
    Senator Manchin. I----
    Mr. Clapper.--approach which I think, over time--and the 
other thing, of course, that's draining resources is the 
demands that they have for governance, particularly in large--
--
    Senator Manchin. Yeah.
    Mr. Clapper.--cities like Mosul.
    Senator Manchin. Just a--just very quickly. But, the rapid 
rise, as far as in their--when we first heard about ISIS, it 
was 3-, 5,000, then it just seemed to leapfrog to 10-, 15-, 20-
, and 30-. Were they paying their soldiers, or attracting 
because of better pay than--
    Mr. Clapper. The reason they----
    Senator Manchin.--al Qaeda and Taliban?
    Mr. Clapper. The reason they--there was sort of mushrooming 
growth there, and the initial phases when they did their 
attacks in northern Iraq----
    Senator Manchin. Sure.
    Mr. Clapper.--was because the--this is largely a Sunni 
region. They were very receptive, frankly, to joining up with 
ISIL, which I think many viewed as a better protector of 
themselves and their communities and their families than were 
the Iraqi Government. So, that's what occasioned the joining 
up.
    Senator Manchin. Do you have any----
    Mr. Clapper. Now, we're--we're now seeing anecdotal 
evidence of their having--and paid, you know, money----
    Senator Manchin. Were they paying better than----
    Mr. Clapper. They are----
    Senator Manchin.--everybody else?
    Mr. Clapper.--also having to reduce the amount of money 
they're paying some of their fighters.
    Senator Manchin. So, that should reduce--that could reduce 
some of their strength, right? If they don't pay them as well 
as somebody else?
    Mr. Clapper. That and the--and what we're also seeing--
again, anecdotal evidence of--they've been driven to 
conscription. In other worse, forcing people to join the ranks 
to----
    Senator Manchin. Gotcha.
    Mr. Clapper.--sustain their fighter force, particularly as 
they've taken some pretty heavy losses--notably, in Khobani.
    Senator Manchin. Thank you, Mr. Chair.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, gentlemen, for your wonderful 
service to our country.
    General Stewart, you may have noticed the Chairman has a 
particularly soft spot in his heart for marines. He's probably 
treated you in that regard. So----
    General Stewart. I'm pretty delighted about that, too, 
Senator.
    Senator Sullivan. Yeah. Well, I'll make sure he keeps 
treating you with kid gloves, I'm sure.
    I want to thank you gentlemen for what you're doing, 
because I think that your service, particularly providing real, 
accurate threat assessments to not only the Congress, but to 
the American people, the administration, is absolutely, 
fundamentally critical if we're going to get a hold of these--
many of the challenges that we face right now as a country. And 
you probably noticed that this committee has had several 
hearings over the last several weeks about these assessments 
with some luminaries, Democrat, Republican, former Secretaries 
of State, former four-star generals, about what they see as 
some of the challenges and strategies that we need. I think 
there was consensus that we're living in a very challenging 
environment. Henry Kissinger mentioned it was one of the most 
challenging that he's ever seen in his career, which says a 
lot.
    What I want to touch on a little bit is what I see as a 
rather disturbing disconnect between some of the testimony that 
comes from gentlemen like yourself from this whole series of 
hearings that we had and the disconnect between that and senior 
administration officials. Let me give you a few examples.
    The President, himself, in the State of the Union, talked 
about the crisis of 9/11 and everything has passed. Went 
through a whole list of things that made it sound like we're 
living in a very benign world environment.
    The Secretary of State yesterday talked about, ``actually 
living in a period of less daily threats to American and people 
in the world normally.'' That was his quote.
    The recent National Security Strategy document from the 
White House lists, I believe, climate change if--as one of the 
top, if not the top, national security threat, relative to, 
say, Iran gaining nuclear weapons, or ISIS.
    Do you agree with these assessments from the senior 
leadership of the administration, that we're living in a less 
daily threatening--that Iran gaining nuclear weapons is less of 
a threat than climate change? I really need--I think it's 
critical that we level with the American people what exactly 
are the threats that we face as a country right now. And I 
don't think we're getting it from the administration.
    Mr. Clapper. Well, I think our function, in the 
intelligence community, is to portray, as accurately as we can, 
what we see as the threats. We probably always occupy the half 
of the glass that's empty, and policymakers, and oftentimes 
military commanders, will occupy the half of the glass that's 
full. Probably the real truth is at the water line.
    I think our instinct, frankly, is to perhaps--I've been 
criticized for this--worst-case the situation. Having been on 
the receiving end of virtually every post-event critique 
investigating intelligence failures since September 11, I think 
we are much more conservative and much more cautious than 
others might be about the nature of the world out there. But, I 
think we have a certain institutional responsibility, which we 
try to discharge. If others don't see it that way or others 
don't agree, that's certainly their prerogative.
    Senator Sullivan. So, do you agree with those assessments 
that----
    Mr. Clapper. I'm not in the mode of--we don't do policy, 
and I'm not critiquing those who do make it.
    Senator Sullivan. Okay. I don't think that's policy that 
they've been putting out. I think it's--they're giving threat 
assessments to the American people that are inaccurate. But, 
let me----
    Mr. Clapper. Well, climate change----
    Senator Sullivan. I'll move on----
    Mr. Clapper. I mean, climate change, for example, I think 
will have--does have national security implications. It--if you 
watch what's going on in the Arctic now, and the impacts on 
climate change, in terms of water availability and this sort of 
thing, does have national security implications. I probably 
wouldn't rank it up there as problem or threat number one, but 
it is a serious concern.
    Senator Sullivan. Let me just ask General Stewart. The--you 
know, the--Senator Manchin was talking about the increasing 
recruitment of ISIL. What role do you see that they are 
perceived as continuing to win, as continuing to be victorious, 
as continuing to be kind of a team that's gaining ground, not 
being defeated? I think--in your experience, I'm sure that if a 
recruit thinks he's going to go join a team and get killed, he 
probably is not going to be interested in joining that team, 
but if they seem to be perceived as kind of gaining ground--
North Africa now, Syria, Iraq--do you think that that helps in 
their recruitment efforts?
    General Stewart. A very capable propaganda media operation 
that emphasizes their success and their victories, however 
small, and that is a basis for attracting those who would move 
to that ideology. So, their success on the battlefield, or 
perceived success, or the way they're presented, certainly 
helps them in gaining recruits for the fight.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you both for being here today.
    The execution of Coptic Christians in Libya by terrorists 
affiliated with ISIL raises a question about ISIL's ability to 
coordinate with other groups. What's your assessment of the 
links between ISIL in Syria and Iraq and the groups that have 
acted in its name outside of those two countries?
    Mr. Clapper. If you're referring to ISIL's other chapters 
or provinces, so-called, if that's what you--if that's what 
you're referring to?
    Senator Gillibrand. Yes.
    Mr. Clapper. And what's the connection there?
    Senator Gillibrand. So, what's your assessment of their 
ability to coordinate, to communicate, to engage in terrorist 
acts outside of Syria and Iraq?
    Mr. Clapper. If you--do you mean the homeland or elsewhere 
in the world?
    Senator Gillibrand. Your choice, but both would be good.
    Mr. Clapper. Well, I think what they've tried--they're 
trying to do, of course, is to create the--both the substance 
and, maybe more importantly, the image of this global-scale 
caliphate by establishing chapters or franchises, if you will, 
in places like Libya, Egypt, Yemen, and South Asia. The extent 
to which, though, they--this is some monolithic organization, 
where ISIL in al-Rikah or Abu Du'a or Baghdadi is calling the 
shots in, say, Afghanistan/Pakistan, I don't see a lot of 
evidence of this. I think this is more about pledging 
allegiance to the brutality and the savagery of the--of ISIL. 
But, the first and foremost issues for these local chapters is 
local.
    I think, aspirationally, there is a threat that ISIL poses, 
potentially, to the homeland, and those they might harbor in 
their area, particularly in Iraq and Syria, who would do us 
harm.
    Senator Gillibrand. I agree with that assessment. And we 
just had a recent case out of Brooklyn, where we had threats 
being made.
    You mentioned Yemen. Could you just briefly----
    Mr. Clapper. If I----
    Senator Gillibrand. Go ahead.
    Mr. Clapper. If I might comment on that, ma'am, this is 
what I was referring to in my oral statement about--and this is 
a real challenge for all of us in--whether homeland security or 
intelligence--is the appeal, the rhetorical or spiritual appeal 
that, because of the effective--very highly effective media 
capabilities that ISIL has demonstrated, and how that--they are 
able to appeal to people, who then can act on their own at a 
time--in a time and place and circumstance of their choosing. 
And that is a very worrisome challenge, particularly in this 
country. So, not so much them commanding/controlling plots as 
much as----
    Senator Gillibrand. Inspiring----
    Mr. Clapper.--inspiring them.
    Senator Gillibrand.--plots, right.
    So, do you have recommendations for us about ways to stem 
that tide? Do you believe that our allies and other countries 
are doing their fair share? Particularly, I am concerned about 
the flow of foreign fighters, some of them from the United 
States, from Europe into--in and out of Syria. For example, 
what should Turkey be doing to help us more?
    Mr. Clapper. Well, as we discussed before, Turkey has its 
own focus, which doesn't necessarily comport with ours, in 
terms of focusing on ISIL or al-Qaeda. They have very 
permissive laws. It would be good if they could--if we could--
if they would change them to have more stringent controls over 
who transits through their country.
    I do--I would volunteer that I think, because of the 
effectiveness of the media campaign or the propaganda campaign 
that ISIL mounts, that we, the United States, and we, the West, 
we who oppose ISIL need to be, I think, much more aggressive in 
mounting the counternarrative.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman McCain. I want to thank the witnesses.
    Just before we conclude, could I just, again, take a look 
at that chart over there--General, I know you've seen it--as to 
the expansion of the Chinese by filling in areas in the South 
China Sea. That's a rather dramatic change, it seems to me. And 
obviously, they'd be filling in--that in, in order to place 
installations there. Is--could you talk a little bit about that 
before we conclude?
    Mr. Clapper. Well, the Chinese, of course, have had their 
exorbitant claims, the so-called ``Nine-Dash line,'' throughout 
the South China Sea, been very aggressive about pursuing that. 
The--and, of course, this runs afoul of counterclaims that many 
of the other countries also have in the same area. And they, 
too, are very concerned about it. In fact, I think, in a sense, 
that's--that may be a good thing, because, in the end, their 
strength is going to be as--if an act--they can act 
collectively.
    So, what the Chinese are doing, here, of course--in one 
case, you know, building airfield--an airdrome so that they can 
launch aircraft in and out to do patrols and surveillance and 
further exert what they consider is their sovereignty over the 
South China Sea. And it has been impressive, in the last year, 
year and a half since they've been doing this, as they pursued 
drilling, which has caused conflict with the Vietnamese and 
others. And so, this is a worrisome trend of the Chinese 
because of the tensions it's going to create in the South China 
Sea.
    Chairman McCain. So, you've----
    Mr. Clapper. But, they've been very aggressive about it.
    Chairman McCain. So, you've got, not only the capability to 
build an airfield, but, obviously, weapon systems. Could also 
be--
    Mr. Clapper. Well, they could, exactly.
    Chairman McCain. Yeah.
    Mr. Clapper. Of course, they're still in the construction 
phase, so what they actually deploy to something like this, or 
whether they permanently--they make it big enough so they could 
permanently station forces, that'll be interesting to see what 
they do.
    Chairman McCain. Well, obviously our attention is on other 
parts of the world, but this is really quite a major step on 
their part. And I thank you for helping us out on that.
    Jack, do you----
    Senator Reed. I'd--if I may, with just one question, in 
reaction to Senator Gillibrand's questioning.
    We all understand, there's a huge, sort of, public campaign 
that ISIL is undertaking to attract recruits, to dramatize what 
they're doing. And you may not be able to comment in this 
setting. But, are we taking steps to interdict that 
communication so that they're not able to put things up and 
attract recruits and communicate?
    Mr. Clapper. Well, the problem there is, their ubiquitous 
use of the media. And so, the challenge is, How do you take 
down the Internet? Because that's more and more what they're 
doing. In the day when al Qaeda or ISIL put these things out, 
it was kind of channelized, and we kind of watched it, and 
could do that. They've gotten wise to that, and now they make 
it very difficult, because of the universal forums and the way 
they get things out so ubiquitously. Very hard to control it. 
Ergo, what we must do, I believe, is counter the messages.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. General, I know you've had a--are going to 
have and are having a very busy couple of days, and I know you 
understand that we have our responsibilities to try to inform 
members in the Senate so that we can shape legislation to help 
you do your job more effectively and efficiently.
    And we thank both of you for being here.
    This hearing is adjourned.
    [Whereupon, at 11:28 a.m., the committee adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
